No. 19-241
In The

Supreme Court of the United States

UMB Bank, N.A., et al.,
v.

Petitioners,

Landmark Towers Ass’n, Inc.,
Respondent.

On Petition for a Writ of Certiorari to
the Colorado Court of Appeals

BRIEF IN OPPOSITION

Brian K. Matise
Counsel of Record
Nelson Boyle
Burg Simpson
Eldredge Hersh & Jardine P.C.
40 Inverness Drive East
Englewood, CO 80112
(303) 792-5595
bmatise@burgsimpson.com
Counsel for Respondent
Mosaic - (301) 927-3800 - Cheverly, MD

49261_Ltrhd.indd

1

6/11/08

12:44:0

i
QUESTIONS PRESENTED
Including property in a special taxing district solely
to tax it, when it never could benefit from any public
improvements in the district, is a confiscation of property in violation of the Due Process Clause. Myles Salt
Co. v. Board of Commissioners of the Iberia & St. Mary
Drainage Dist., 239 U.S. 478 (1916).
The question presented is:
1. Should the Court overrule or limit Myles Salt by
holding that levying property that was included in a
special taxing district solely to tax it to pay for improvements for property in a neighboring subdivision,
but without the possibility that it could ever receive
any benefits from district improvements, does not violate those taxpayers’ Due Process rights?

ii
PARTIES TO PROCEEDINGS BELOW
The parties’ roles require clarification. Petitioners
UMB Bank, N.A. and Colorado Bondshares were not
cross-appellants below. Neither was the Marin Metropolitan District.
UMB and Colorado Bondshares, along with the District, were all defendants in the trial court, appellants
and cross-appellees in the Colorado court of appeals,
and petitioners before the Colorado supreme court in
two actions, first, a 2016-17 petition (where that court
granted certiorari, reversed the judgment of the Colorado court of appeals, and remanded to the court of
appeals for further proceedings), and second, a 2018
petition that the Colorado supreme court denied. The
District did not join UMB and Bondshares’ petition for
a writ of certiorari in this Court.
Respondent, Landmark Towers Association, Inc. is
a Colorado non-profit corporation in good standing.
On behalf of its members, Landmark was the plaintiff
in the trial court, the appellee and cross-appellant in
the Colorado court of appeals, and the respondent in
both Colorado supreme court cases. Landmark now
appears before this Court on behalf of its members.

iii
CORPORATE DISCLOSURE STATEMENT
Landmark is a non-profit homeowners association
organized under Colorado law for common interest
communities. It is not publicly traded and has no parent corporations. No publicly held corporations own
10% or more of its stock.

v
TABLE OF CONTENTS

Page

INTRODUCTION.............................................

1

PRIOR RELATED DECISIONS......................

3

STATEMENT ON JURISDICTION................

4

STATEMENT OF THE CASE..........................

6

1. The facts are restated here to include
important facts.........................................

6

2. The sham election, the Landmark
owners as electors, and the Colorado
supreme court’s ruling that a procedural
bar precluded an election challenge..........

11

3. Rulings below...........................................

12

REASONS TO DENY CERTIORARI REVIEW.

12

1. Myles Salt fits comfortably in this Court’s
state-tax due process jurisprudence and
jurisprudence and does not conflict with
other courts’ decisions.............................

12

A. All taxes must provide some indirect
or potential benefit to the taxpayer,
even if that benefit is simply the
protection of an organized society.....

13

B. In state tax cases, the Court looks
past labels and jargon to find the
levy’s practical application, purpose,
and natural and reasonable effect.....

14

C. Well-recognized factors differentiate
general taxes from special
assessments in applying Due
Process analysis.................................

15

vi
TABLE OF CONTENTS—Continued


D. Myles Salt does not stand-alone, it
fits within the continuum of this
Court’s state-tax, due process
precedent............................................

Page

18

E. The case presents no conflicts
between lower courts, nor any
conflict between the state-court
decision and any decision or
decisions of this Court........................

19

2. The opinion below faithfully applied
Myles Salt, which correctly states that
due process does not allow a special
district to tax one property solely to
benefit another.........................................

20

A. On review for clear error, the Court
should accept the trial court’s
evidence-based fact-findings, which
were affirmed below...........................

20

B. As a Colorado special district, this
District was intended to provide
public improvements only to Marin
subdivision, and was restricted by
its service plan from providing
improvements to Landmark..............

22

C. Myles Salt is indistinguishable from
the facts here and clearly supports
the opinion of the Colorado court of
appeals ...............................................

23

3. Alternative grounds to affirm.................

26

vii
TABLE OF CONTENTS—Continued


A. Reversal of the holding that the tax
violated the federal Due Process
Clause would not reverse the
alternative holding that the tax also
violated Colorado’s Due Process
Clause.................................................

Page

26

B. The Colorado court of appeals also
affirmed the trial court’s declaratory
judgment and injunction against
further taxation on independent
state law grounds...............................

28

C. Alternative federal law grounds for
affirmance exist..................................

29

4. The petition overstates the reach of the
Colorado opinion, which is limited to the
unique facts in Myles Salt and this case..

33

CONCLUSION..................................................

35

APPENDIX
colo. rev. sTaT. 1-11-213(4) (2007)............ App. A
Colo. Rev. Stat. 32-1-103(10) (2007)............. App. B
Colo. Rev. Stat. 32-1-1001 (2007)................. App. C
Colo. Rev. Stat. 32-1-1004 (2007)................. App. D

ix
TABLE OF AUTHORITIES

Page

cases

Air Pollution Variance Bd. v. Western Alfalfa
Corp., 461, 553 P.2d 811 (1976)...................

27

Allen v. Wright, 468 U.S. 737 (1984)................

4

Anderson v. Bessemer City,
470 U.S. 564 (1985) . ....................................

21

Bloom v. Fort Collins,
784 P.2d 304 (Colo. 1990).............................

19, 27

Branson v. Bush, 251 U.S. 182 (1919).............

25

Brisco v. Rudolph, 221 U.S. 547 (1911)...........

20

Brush Grocery Kart, Inc. v. Sure Fine Mkt., Inc.,
47 P.3d 680 (Colo. 2002)...............................

26

Burns v. Dist. Ct., 356 P.2d 245 (Colo. 1960)..

32

Cacioppo v. Eagle County School Dist. RE-50J,
92 P.3d 453 (Colo. 2004)...............................

29, 31

Carmichael v. S. Coal & Coal Co.,
301 U.S. 495 (1937).......................................

13, 15

Carpenter v. Shaw, 280 U.S. 363 (1930)..........

15, 16

Commonwealth Edison v. Montana,
453 U.S. 609 (1981).......................................

14

Diamond v. Charles, 476 U.S. 54 (1986)..........

5

Denver v. Greenspoon,
344 P.2d 679 (Colo. 1959).............................

24, 27

x
TABLE OF AUTHORITIES—Continued

Elk Grove Unified Sch. Dist. v. Newdow,
542 U.S. 1 (2004)...........................................

Page

Exxon Co. v. Sofec, 517 U.S. 830 (1996)...........

21

French v. Barber Asphalt Paving Co.,
181 U.S. 324 (1901).......................................

17

Ga. Ry. & Elec. Co. v. Decatur,
295 U.S. 165 (1935).......................................

15, 25

Gast Realty Co. v. Schneider Granite Co.,
240 U.S. 55 (1916).........................................

14, 25

Hernandez v. New York, 500 U.S. 352 (1991)..

21

Hill v. Stone, 421 U.S. 289 (1975)....................

32

Hollingsworth v. Perry, 570 U.S. 693 (2013)...

5

Houck v Little River Drainage Dist.,
239 U.S. 254 (1915).......................................

14

4

Ill. Cent. R.R. Co. v. Decatur,
147 U.S. 190 (1893).................................. 16, 17, 18
In re: CLS, 252 P.3d 556 (Colo. Ct. App. 2011).

31

Int’l Harvester Co. v. Wis. Dep’t of Taxation,
322 U.S. 435 (1944).......................................

15

Kan. City S. Ry. Co. v. Road Improvement
Dist. No. 3, 266 U.S. 379 (1924)...................

17

Kowalski v. Tesmer, 543 U.S. 125 (2004).........

5

Landmark Towers Ass’n v. UMB Bank,
436 P.3d 1126 (Colo. Ct. App. 2016)............

3

xi
TABLE OF AUTHORITIES—Continued

Page
Landmark Towers Ass’n v. UMB Bank,
436 P.3d 1139 (Colo. Ct. App. 2018)............ passim
Leland v. Oregon, 343 U.S. 790 (1952)............

27

Littleton v. State, 855 P.2d 448 (Colo. 1993)....

19, 27

Marin Metro. Dist., v. Landmark Towers Ass’n,
412 P.3d 640 (Colo. App. 2014)....................

4

McCulloch v. Maryland, 17 U.S. 316 (1819)....

13

Memphis & Charleston Ry. Co. v. Pace,
282 U.S. 241 (1931).......................................

15

Miller Brothers Co. v. Maryland,
347 U. S. 340 (1954)......................................

13

Morton Salt Co. v. Hutchinson,
177 F.2d 899 (10th Cir. 1949).......................

16

Myles Salt Co. v. Iberia Drainage Dist.,
239 U.S. 478 (1916) . .................................... passim
Nashville, Chattanooga & St. Louis Ry. v.
Walters, 294 U.S. 405 (1935)................... 14, 15, 18
N.C. Dep’t of Revenue v. Kimberley Rice
Kaestner 1992 Family Trust,
139 S. Ct. 2213 (2019).............................. 13, 14, 24
Norwood v. Baker, 172 U.S. 269 (1898)...........

17, 25

Ochs v. Hot Sulphur Springs,
407 P.2d 677 (1965).......................................

27

xii
TABLE OF AUTHORITIES—Continued

Page
Pac. Gas & Eelec v. Sacramento Mun. Util. Dist.,
92 F.2d 365 (9th Cir. 1937)...........................
17
Passarelli v. Shoettler,
742 P.2d 867 (Colo. 1987).............................

31, 33

People ex rel. Juhan,
439 P.2d 741 (Colo. 1968).............................

27, 28

Reams v. Grand Junction,
676 P.2d 1189 (Colo. 1984) ..........................

24, 27

Singleton v. Wulff, 428 U.S. 106 (1976)...........

5

Snyder v. Mass., 291 U.S. 97 (1934).................

27

Soc’y for Savings v. Bowers,
349 U.S. 143 (1955) . ....................................

15

St. Louis & Sw. Ry. Co. v. Nattin,
277 U.S. 157 (1928).......................................

16

UMB Bank v. Landmark Towers Ass’n,
408 P.3d 836 (Colo. 2017)..................

3, 11, 29-33

United States v. Windsor,
570 U.S. 744 (2013).......................................

5

Vega v. People, 893 P.2d 107 (1995).................

27, 28

White v. Davis, 428 P.2d 909 (Colo. 1967).......

31, 33

Wilderness Soc’y v. Kane Cty.,
632 F.3d 1162 (10th Cir. 2011).....................

4, 5

Wisconsin v. J.C. Penny Co.,
311 U.S. 435 (1940).................................. 13, 14, 15

xiii
TABLE OF AUTHORITIES—Continued


Page

consTITUTIonal provIsIons

AMdT. 5..............................................................

27

AMdT. 14....................................................... 12, 13, 27
colo. consT. Art. II, § 25............................ 12, 26, 27
sTaTUTes

colo. rev. sTat. § 1-11-213(4) (2007)..............

29-32

colo. rev. sTaT. §§ 32-1-101 et seq. (2007).....

22

colo. rev. sTaT. § 32-1-103(10) (2007)............

23

colo. rev. sTaT. § 32-1-1001 (2007)................

22

colo. rev. sTaT. § 32-1-1004 (2007)................

22

oTher aUThorITIes

70C Am. Jur. 2d Special or Local
Assessments § 26.........................................

20

Black’s Law Dictionary (Deluxe 4th ed. 1951).

16

Black’s Law Dictionary (Deluxe 10th ed. 2014). 16, 17
Schrader, Megan, Colorado Keeps Allowing
Developers to Tax Homeowners for Infrastructure—and it’s Out of Control,
Denver PosT, Feb. 22, 2019.........................

33

1
INTRODUCTION
This Court has long recognized that the power to
tax is not unlimited and, when abused, can amount to
a confiscation of private property in violation of the
Due Process Clause. When land is in a local improvement district solely to tax it and without any benefit
from the improvements, taxing it just to improve different property violates due process. In other words,
the lack of direct or indirect benefit from the tax on
that property transfers wealth from the property burdened with the tax (which cannot benefit from the improvements) to other property (which benefits from
the improvements).
Here, a developer first developed the Landmark towers, which are two high-rise condominium buildings
near Denver, Colorado. Amid the Landmark’s initial
success, the developer decided to develop a separate
subdivision, the European Village, on nearby vacant
property. The developer lacked funds to install water,
sewer, roads, and landscape improvements for the European Village. So the developer organized a special
district, the Marin Metropolitan District, to fund improvements for the European Village. The European
Village lacked a sufficient tax base to support the District’s improvement bonds. The nearby Landmark
properties were put in the District solely to tax them to
repay the bonds. Under the Service Plan Supplement
(approved with the Service Plan),1 the Landmark properties could never benefit from District improvements.
Only the European Village would benefit from District
improvements (which were never completed).

This is not in petitioner’s appendix, nor mentioned in the
petition.
1

2
Faced with these extreme facts, petitioners attempt
to justify the illegal imposition on Landmark properties solely for the benefit of the European Village.
This Court’s precedent holds that in deciding a due
process challenge of a state tax, the Court first looks
past labels and jargon to identify the nature of the
imposition (general taxes indirectly benefit the general public and special assessments directly benefit
specific private property). Despite this well-established law, petitioners have latched onto the phrase
ad valorem tax, a label used in the Service Plan and
state statute, to argue that the levy in question is a
general tax and not a special assessment. Doing so,
they ask the Court to ignore that the District exists
only to provide local improvements to specific property and that the Landmark properties could never
benefit and were only included to pay to improve the
resale value of European Village properties.
No compelling reasons support certiorari review.
First, Myles Salt comfortably fits within this Court’s
longstanding state-tax due process jurisprudence. It
also does not conflict with federal Circuit Court opinions and rests well among state due process opinions.
Second, the opinion below correctly applies Myles
Salt. The evidence-based fact-finding affirmed below
is not clearly erroneous. And no rational reason exists
to reconsider this Court’s state-tax due process precedent or overrule Myles Salt to reach a contrary result
on virtually identical facts.
Third, there are independent grounds upon which
to affirm. (1) Landmark III held that under Colorado
law, the tax was a special assessment and violated
the Due Process Clause of the Colorado Constitution.
(2) Landmark III upheld the trial court’s ruling that

3
the 2019 to 2013 levies on District properties illegally
exceeded a 49.5-mill-levy limit and injunction barring
future taxation at the excessive rate. (3) In Landmark
II, the Colorado supreme court applied a non-claim
statute to reverse Landmark’s successful challenge of
the sham election that allowed the District to issue
bonds and impose taxes. But Landmark II did not address the deprivation of Due Process through fraudulent concealment of the election from the qualified
electors.
Fourth, the petition broadly overstated the reach
and impact of Landmark III, which did not announce
new law. Myles Salt compelled the outcome here on
nearly identical facts. Myles Salt and Landmark III
are unlikely to have great repetition. And even if the
Colorado court of appeals somehow misapplied these
facts to Myles Salt, a misapplication of a properly
stated rule of law is not a compelling reason for certiorari review.
PRIOR RELATED DECISIONS
Landmark Towers Ass’n v. UMB Bank, 436 P.3d
1126 (Colo. Ct. App. 2016) (Landmark I), Pet. App.
54, r’hrg den. 2016 Colo. App. LEXIS 663 (May 12,
2016); UMB Bank v. Landmark Towers Ass’n, 408
P.3d 836 (Colo. 2017) (Landmark II), Pet. App. 36,
r’hrg den. 2018 Colo. LEXIS 49 (Jan. 22, 2018). Landmark’s rehearing petition requested a ruling on a
preserved and argued procedural due process question left undecided in Landmark II. See 2018 CO S.
CT. BRIEFS LEXIS 304 (Jan. 8, 2018). The court denied rehearing without addressing due process. 2018
Colo. LEXIS 49. On remand the lower court considered issues left undecided in Landmark I. Pet. App. 8
(¶16); 53 (¶42).

4
Landmark Towers Ass’n v. UMB Bank, 436 P.3d
1139 (Colo. Ct. App. 2018) (Landmark III), Pet. App.
1, cert. den., Pet App. 172. (Now before this court.)
Marin Metro. Dist. v. Landmark Towers Ass’n, 412
P.3d 640 (Colo. Ct. App. 2014) (Marin), r’hrg den. 2014
Colo. App. LEXIS 755 (May 1, 2014), cert. den., sub
nom., 2014 Colo. LEXIS 1117 (Dec. 22, 2014). Marin
involved the District’s formation and did not concern
the issues decided here. See Landmark I, Pet. App. 59
¶14, 67-68 ¶¶35-40 (Marin had no preclusive effect
here).
STATEMENT ON JURISDICTION
The petition did not address standing. And it appears that without the District, the petitioners lack
standing for certiorari review.
Bondshares and UMB have only an indirect interest in the declaratory judgment and injunction at issue in this petition. They had a direct interest in
Landmark’s fraudulent transfer and unjust enrichment claims. Landmark lost those claims and did not
appeal that ruling.
A party asserting jurisdiction must establish standing. Elk Grove Unified Sch. Dist. v. Newdow, 542 U.S.
1, 11 (2004). To show Article III standing, the proponent “must show that the conduct of which he complains has caused him to suffer an ‘injury in fact’ that
a favorable judgment will redress.” Id. at 12.
“A party may suffer cognizable injury but still not
possess a right to relief.” Wilderness Soc’y v. Kane
Cty., 632 F.3d 1162, 1171 (10th Cir. 2011). Prudential
limitations to standing include a “general prohibition”
against litigants asserting others’ legal rights. Allen v.
Wright, 468 U.S. 737, 751 (1984). This Court generally

5
disfavors third-party standing. Kowalski v. Tesmer,
543 U.S. 125, 129–130 (2004).
This Court has been reluctant to recognize thirdparty standing outside the context of situations
where the rule challenged below would be enforced
against the party invoking standing. Id. at 130 (discussing cases). A party has only a third-party interest when the trial court did not order it to do or refrain from doing anything. Hollingsworth v. Perry,
570 U.S. 693, 705 (2013) (party that did not represent the state could not represent its interests); Diamond v. Charles, 476 U.S. 54, 65-72 (1986) (similar);
Wilderness Soc’y, 632 F.3d at 1171-72 (no standing to
allege injury from government project where plaintiff lacked right to manage the project and government’s absence indicated a disinclination to assert
its own rights); c.f. United States v. Windsor, 570
U.S. 744, 757-63 (2013) (third-party standing allowed when Executive Branch did not assert government’s rights and third party capably represented
those rights). Typically, when third-parties are bound
to a government entity, they still must assert a genuine obstacle to asserting their own rights. Wilderness
Soc’y, 632 F.3d at 1172 (quoting Singleton v. Wulff,
428 U.S. 106, 116 (1976)).
This judgment and injunction will be enforced against
the District, not the petitioners. The petition did not
argue the petitioners have standing to assert the District’s rights, and the District did not appear here—indicating its disinclination to do so. Nor have petitioners
asserted that a “genuine obstacle” barred them from
asserting their rights, if any, elsewhere (for instance
against bond counsel or the District). Since petitioners
did not allege or address standing, and apparently lack
standing, the Court should deny the petition.

6
STATEMENT OF THE CASE
1. The facts are restated here to include
important facts.2
The trial court made extensive findings of fact and
conclusions of law, which the court of appeals affirmed.
The unique and extreme circumstances of this case
were noted in prior opinions and the trial court’s orders. See Pet. App. 3-7 (¶¶4-13), 12 (¶25), 40-43 (¶¶817), 56-60 (¶¶5-16). Also, Order of Sep. 6. 2013 (Sep.
2013 Order), Id. 108-124, 128-29, 133, 135-38; 144147, 151-152. Order of Oct. 31, 2013 (Oct. 2013 Order), Id. 158-59, 160-62, 164-65.
The Landmark Project
The Landmark project includes two high-rise residential condominium towers (the Landmark Towers)
and retail space. Id. 56 (¶5), 109. Landmark Towers
Association (Landmark) is a homeowner’s association
for the property owners (Landmark Owners). Id. 10708. Landmark represents the Landmark Owners in
this case. Id. 55 (¶1). Landmark’s infrastructure was
fully funded from condominium sales proceeds, a development improvement agreement (DIA), and a sales
tax rebate agreement (STRA) with the City of Greenwood Village. Id. 3-5 (¶¶5, 6, 8), 12 (¶25), also Pet.
App. 110-111, 114, 144-45, 146-47; EX, pp 2-14, 15-29;
TR 7/30/13, pp 31-44, 46-52; R. TR 8/1/13, pp 39-42.3
So Landmark did not need a special district. Id.
The petition omitted pertinent facts necessary to the decision below and essential to understanding this case.
2

Citations to the appellate record follow Colorado appellate
specifications, avail. http://bit.ly/coloappcitations referring to .
pdf files with standardized identifiers (CF for Court File, EX for
3

7
The Marin Metropolitan District.
Landmark towers pre-sales in 2005 went well and
construction began in 2006. Pet. App. 111; EX, p 1427.
In 2007, the developer proposed the Marin Metropolitan District to finance (with bonds) infrastructure for
a second, independent subdivision south of the Landmark, known as the European Village or Marin.4 Pet.
App. 4 (¶6), 40-41 (¶10), 112-113. The European Village would not provide a sufficient tax base to repay
those bonds. Id. So, only to boost the tax base, the developer included Landmark in the District (without
notifying purchasers already under contract to purchase the property). Id.
The developer proposed a Service Plan to the City.
Id. 4 (¶7), 41 (¶13). City staff expressed concerns that
(1) the developer could use District-related funds to
pay for improvements that were already provided for
in the DIA, and (2) Landmark was included “to support the mill levy for facilities and services that appear to principally benefit the development of structures associated with the Marin Development.” EX,
pp 262-64; also Pet. App. 113. City staff recommended
excluding Landmark from the District. EX, p 265; also
Pet. App. 5 (¶9), 113.
The City approved the amended Service Plan, along
with a Service Plan Supplement. Pet. App. 5 (¶¶8-9), 1718 (¶33), 113-14. The Supplement prohibited the District from funding any Landmark infrastructure, including that already funded by the DIA or STRA. Id. 17 (¶33
& n.6), 114, 144-45, 146-47; EX, pp 2-13, 15-23, 90. It is
Exhibits, TR(date) for Transcripts).
Trial court orders called this the Marin project and the District either Marin or Marin district. Pet. App. 108, 112. The Colorado appellate courts used District and European Village.
4

8
undisputed that the construction loan, DIA, and STRA
completely funded Landmark’s infrastructure (streets,
water, sewer, landscaping) before the Marin District
was ever conceived. Pet. App. 3-5 (¶¶5, 6, 8), 17 (¶33 &
n.6), 114, 144-45, 146-47; TR 7/29/13, pp 70:22-71:25.
“The Service Plan doesn’t show any area of the Landmark Project that would benefit from the proposed improvements; to the contrary, the maps included in the
Service Plan show that all improvements are separated
from the Landmark Project by existing streets.” Pet.
App. 5 (¶8), 12 (¶25), 114, 146-47. For example, the District’s proposed public infrastructure (blue/purple) is
completely outside the Landmark subdivision (yellow):

Trial Exhibit 1, EX, p 740; 5 TR 7/29/13, pp 77:378:23; Pet. App. 114, 146; see also EX, pp 731-742; TR
5

This map labeled, “Exhibit D-2, Public/Private Areas,”
was
Ex, p. 740

9
7/29/13, pp 66-79. All of “the infrastructure is internal
to the European Village Project: it provides no benefit
. . . to the surrounding community.” Pet. App. 5 (¶8),
also id. 114, 144-45, 146-47.
The only streets and infrastructure in the District’s
service area were South of Berry Avenue. Id.; EX, pp
741-742; TR 7/29/13, pp 79:2-80:2. Trial exhibit 50 shows
the then-existing Landmark towers, shopping center,
and common areas are all North of Berry Avenue; the
vacant European Village site is entirely to the South:

DATE FILED: November 1, 2013 3:22 PM

Trial Exhibit 50, EX, p. 146; TR 7/29/13, pp 66:7-69:8.6
Ex, p. 146

one of the attachments (or “Exhibits”) attached to the Service
Plan.
The Landmark HOA provides the Landmark properties’ water service, plumbing, sewers, heating, cooling, landscaping, and
maintenance. TR 7/29/13, pp 90:3-91:13. The District provides
none of these. Id.
6

10
In sum, “as the district court found, with record
support, the Landmark receives no benefit, direct or
indirect, from [the District’s proposed] improvements.” Pet. App. 12 (¶25) (citing cases explaining
this is a finding of fact, not a legal conclusion), 147
(“no actual benefit of any kind”; Landmark “received
absolutely nothing”), 162 (District never provided
any improvements to Landmark), 165 (“[D]istrict
never has, and foreseeably never will provide any
benefit or service to [Landmark]”). The Landmark
properties were included solely to benefit the European Village subdivision. Id., also id. 164-65 (Landmark properties were “included . . . with the predetermined purpose[s] of . . . increasing the tax base so
as to obtain the bond revenues needed for the European Village project and . . . granting a special benefit to those other lands without any actual or needed
benefit to the [Landmark] propert[ies]”). Also, “the
tax imposed was not, in any significant way, to defray the general expenses of [the District] as a governmental entity.” Id. 161.
No District improvements were ever constructed.
Id. 147; TR 7/29/13, pp 79, 12-12, 84:16-85:2; TR
7/30/13, p 73:18-22. The area remains blighted. EX,
pp. 243, 244, 249, 251 (photos of blight); TR 7/29/13,
pp 80-84.
Levy Exceeding 49.5-Mill Limit
The District issued limited-mill-levy bonds, for
which the mill levy could not exceed 49.5 mills. Pet.
App. 6 (¶11), 28 (¶56 & n.13). The District’s levy of
59.5 mills exceeded that limit from 2009 to 2013, so
the trial court found the levy illegal and enjoined
further taxation by the District. Id. 26-29 (¶¶5056).

11
Bondshares’ Due Diligence.
The trial court and court of appeals both then made
independent findings on the balancing of the equities.
See Id. 20-23 (¶¶38-41 & n.8). The appellate panel
noted that petitioners’ entire argument on the equities before the court below consisted of this statement:
“the court misapplied the law, and thus also the equities.” Id. 21 (¶38 n.8). But, “leaving nothing to chance,”
the appellate panel agreed with the trial court’s finding (see Id. 150-52) and listed additional “undisputed
evidence” supporting its conclusion that the equities
favor the Landmark owners over Bondshares. Id. 2122 (¶¶39-40).
2. The sham election, the Landmark owners as
electors, and the Colorado supreme court’s
ruling that a procedural bar precluded an
election challenge.
The petition misleadingly says the developers and
his consorts properly approved the debt in an election.
Pet. 10-11. “This ‘election’ was planned and conducted
using what could be charitably described as dubious
means.” Pet. App. 6 (¶10) (citing Id. 58 (¶10), 74-76
(¶¶54-55, 57), 79-81 (¶63). The Landmark buyers
were the correct electors, and it is undisputed that
they never received notice of the debt election, so none
of them voted. Id. 6, 81-83 (¶¶65-70), rev’d on other
grounds, Id. 36-53,7 r’hrg denied, 2018 Colo. LEXIS
49. The election was fraudulently concealed from the
Landmark owners, who never had notice of the election until long after the election. So Landmark’s briefs,
The Colorado supreme court reversed on other grounds and
did not reach the merits of Landmark’s bond-election challenge,
nor the holdings that the Landmark owners were the proper electors, who were deprived of their rights to vote in the sham election.
7

12
oral argument, and rehearing petition in the Colorado
supreme court asserted Due Process objections to the
application of a 10-day non-claim statute.
3. Rulings below
After a bench trial, the trial court concluded that (1)
the District’s 59.5-mill debt service levy exceeded its
49.5-mill limit, and (2) taxing the Landmark properties violated the Landmark owners’ due process rights.
Pet. App. 134-41, 145-52, 157-65. The trial court “ordered the District to refund Landmark buyers the
property taxes collected in excess of the . . . Service
Plan [limit]” and “enjoined the District from levying
further illegal taxes on Landmark.” Pet. App. 60 (¶16),
141, 150, 153-54.
The court of appeals affirmed and upheld the injunctions. Creation of the District to include the Landmark
properties and resulting levying of those properties,
violated the Landmark owners’ due process rights under the United States and Colorado Constitutions, id.
25-26 (¶49 & n.12), and the District’s mill levy exceeded applicable limits, see id. 10-18 (¶¶23-33) (due process violation), 20-23 (¶¶37-41) (equities favor Landmark), 26-29 (¶¶50-56) (mill levy exceeded limits).
REASONS TO DENY CERTIORARI REVIEW
1. Myles Salt fits comfortably in this Court’s
state-tax due process jurisprudence and
does not conflict with other courts’
decisions.
Petitioners illogically seek to impose a divide between the Court’s state-tax due process cases. But the
cases almost uniformly start by stating the legal principles differentiating general taxes from special as-

13
sessments before determining which type of tax (general or special assessment) is at issue. Next, they turn
to whether the tax or assessment passes constitutional muster. Without regard to the first step, it is incorrect to say that there is a separate line of “special assessment” cases that differ from “tax” cases. (More so,
since a special assessment is a type of tax.) Instead,
Myles Salt fits within the continuum of this court’s
precedent that consider whether state general tax and
special assessment laws comply with Federal constitutional provisions, most prominently, the Due Process and Commerce Clauses.
A. All taxes must provide some indirect or
potential benefit to the taxpayer, even if
that benefit is simply the protection of an
organized society.
The Due Process Clause provides that “[n]o State
shall . . . deprive any person of life, liberty, or property,
without due process of law.” Amdt. 14, § 1. The state
taxing power can be asserted only for public purposes,
not private ones. Carmichael v. S. Coal & Coal Co., 301
U.S. 495, 514 (1937). “ ‘In the context of state taxation,
the Due Process Clause limits States to imposing only
taxes that “bea[r] fiscal relation to protection, opportunities and benefits given by the state.’ ” N.C. Dep’t of
Revenue v. Kimberley Rice Kaestner 1992 Family Trust,
139 S. Ct. 2213, 2219-20 (2019) (quoting Wisconsin v.
J.C. Penny Co., 311 U.S. 435, 444 (1940)).
“The power to tax is, of course, ‘essential to the very
existence of government,’ ” Id. (quoting McCulloch v.
Maryland, 17 U.S. 316 (1819)), “but the legitimacy of
that power requires drawing a line between taxation
and mere unjustified ‘confiscation.’ ” Id. (quoting Miller
Brothers Co. v. Maryland, 347 U. S. 340, 342 (1954)).
“That boundary turns on the ‘[t]he simple but control-

14
ling question . . . whether the state has given anything
for which it can ask return.’ ” Id. (quoting Wisconsin,
311 U.S. at 444). Local improvement tax districts “may
fix the basis of taxation without encountering the
Fourteenth Amendment unless [the] action is palpably
arbitrary or a plain abuse.” Gast Realty Co. v. Schneider Granite Co., 240 U.S. 55, 58-59 (1916) (citing Houck
v Little River Drainage Dist., 239 U.S. 254, 262 (1915)).
The precedent cited in the petition that discusses
benefits uniformly supports the proposition that all
taxes must always provide something in return—either a general (often indirect) or specific (direct) benefit: e.g., Commonwealth Edison v. Montana, 453 U.S.
609 (1981) (general taxes, imposed for the common
good under the police power, need not provide a direct
benefit, implying an indirect benefit). And, while the
petition relies on Walters for the idea that a tax could
constitutionally exist without providing a benefit and
even imposing a detriment, the decision rests on the
notion implicit in all of the state general tax decisions
that general taxes imposed under the police power to
support the common good pass muster because they
benefit society in general and the taxpayer gets to be
part of that society. Nashville, Chattanooga & St. Louis Ry. v. Walters, 294 U.S. 405, 429-30 (1935) (Walters).
Indeed, Walters explains (like Myles Salt) that “socalled assessments for public improvements laid upon
particular property owners are ordinarily constitutional only if based on benefits received by them.” Id.
B. In state tax cases, the Court looks past
labels and jargon to find the levy’s
practical application, purpose, and
natural and reasonable effect.
State law determines whether a tax should be laid
on all real property in a taxing unit or just on special-

15
ly-benefited property. Pet. at 26 (citing Memphis &
Charleston Ry. Co. v. Pace, 282 U.S. 241, 245-46 (1931)
(Memphis)).
To ascertain the constitutionality of a state tax or
tax law, the Court looks past the rigid categories, descriptive labels, and technical phrasing used to describe an exaction and focuses on the practical application of the tax—its scope and natural and reasonable
effect. Wisconsin, 311 U.S. at 443-44; also, Int’l Harvester Co. v. Wis. Dep’t of Taxation, 322 U.S. 435, 441
(1944) (citing cases) (the Court looks at a tax’s “practical operation, and not its characterization by state
courts”); Carmichael, 301 U.S. at 508-09 (“particular
name” a state court gives to a levy does not control
when its constitutionality is in question); Carpenter v.
Shaw, 280 U.S. 363, 367-68 (1930) (characterization
state courts give to a tax not binding; the Court must
consider “the real nature of the tax and its effect upon
the federal right asserted”); Soc’y for Savings v. Bowers, 349 U.S. 143, 151 (1955) (similar). However, the
Court defers to state court construction of state law
while sifting through the jargon. Compare Id. with
Ga. Ry. & Elec. Co. v. Decatur, 295 U.S. 165, 170
(1935) (Decatur) (Court bound by the state court’s construction of state law).
C. Well-recognized factors differentiate
general taxes from special assessments in
applying Due Process analysis.
The petition’s invocation of the definition of the
term general tax for the phrase ad valorem tax leads
petitioners’ argument astray. This Court and others
have long recognized and discussed a difference between general taxes and special assessments. E.g.,
Walters, 294 U.S. at 429-30 (discussing differences between general taxation and “so-called assessments for

16
public improvements laid upon particular property
owners” and holding a tax unconstitutional). Numerous cases describe the differences between general
taxes and special assessments. See Carpenter, 280
U.S. at 366-67; Ill. Cent. R.R. Co. v. Decatur, 147 U.S.
190, 197-98 (1893); Morton Salt Co. v. Hutchinson,
177 F.2d 899, 892 (10th Cir. 1949) (collecting cases).
This court has described a tax as being both “general” and “ad valorem.” St. Louis & Sw. Ry. Co. v. Nattin, 277 U.S. 157, 159 (1928) (Nattin) (“assailed tax
was general and ad valorem”). But the phrase ad valorem tax is not a synonym for general tax. Instead,
the adjective ad valorem merely modifies the noun tax
and can also modify the nouns assessment and special
assessment. This semantic distinction is crucial to understanding the faulty premises that support the petition. Definitions of key terms used in the petition and
here will help clear the confusion:
• Ad valorem, an adjective, means, “according to
value.” Black’s Law DIcTIonary (Deluxe 4th ed.
1951) 58.
• Tax “[m]ost broadly . . . embraces all governmental impositions on the person, property, privileges, occupations, and enjoyment of the people, and
incudes duties, imposts, and excises.” Black’s
Law DIcTIonary (Deluxe 10th ed. 2014) 1685.
• Ad valorem tax means “a tax imposed proportionally
on the value of something (esp. real property), rather than on its quantity or some other measure.” Id.
• Special assessment means an “assessment of a
tax on property that benefits in some independent
way from a public improvement.” Id. at 140 (emphasis added); see also Pet. 21 (quoting decisions
of this Court that explain that special assess-

17
ments are a form of tax);8 Pet. 27 (“special assessments ‘are imposed upon property within a limited area, for the payment for a local improvement,
supposed to enhance the value of all property
within that area.’ ”); Pet. 27-28 (quoting Ill. Cent.
R.R., 147 U.S. at 199); Pet. 28 (“Generally, special assessments are intended to increase the value of the subject property by the expenditure.”).
One commentator explains differences between taxes and assessments:
There is a distinction between public improvements,
which benefit the entire community, and local improvements, which benefit particular real estate or
limited areas of land. The latter improvements are
usually financed by means of special, or local, assessments. These assessments are, in a certain sense,
taxes. But an assessment differs from a general tax
in that an assessment is levied only on property in
the immediate vicinity of some local municipal improvement and is valid only where the property assessed receives some special benefit differing from
the benefit that the general public enjoys. Robert
Kratovil, Real Estate Law 465 (6th ed. 1974).
Black’s (10th) at 139; accord., Pac. Gas & Elec. v. Sacramento Mun. Util. Dist., 92 F.2d 365, 371-72 (9th Cir.
1937) (general taxes okay for general benefits, but not
okay to pay for improvement to particular property).
Some courts drop the adjective general and refer to
general taxes as simply ad valorem taxes. At times
Ill. Cent. R.R., 147 U.S. at 198 (special assessments are a
“peculiar species of taxation”); Norwood v. Baker, 172 U.S. 269,
280 (1898) (“peculiar species of taxation.”); French v. Barber Asphalt Paving Co., 181 U.S. 324 (1901) (refers to assessment as a
tax); Kan. City S. Ry. Co. v. Road Improvement Dist. No. 3, 266
U.S. 379, 381 (1924) (special assessment is a “special tax”).
8

18
this Court uses general taxation, general tax, or general levy to refer to that same type of tax. E.g., Pet. 16
(quoting Walters, 294 U.S at 429-30), 25 (quoting Ill.
Cent. R.R., 147 U.S. at 197-98), 27 (same). Courts’ fuel
confusion by using the inexact phrase ad valorem tax
to describe a general tax that happens to be collected
according to value. Usage of varying jargon for state
taxing schemes underscores the need to look past labels to determine the nature of an exaction. E.g., Walters, 294 U.S. 405, 429-30.
But the trial court exhibited its understanding of
the difference between the nouns, tax and assessment,
and the modifying adjectives applied to them, ad valorem, general, and special. Thus, it explained, its use
of the term ad valorem referred to “the fact that the
charged imposed was based on the value of the property owned by the taxpayers.” Pet. App. 159. The appellate panel likewise explained the differences between general taxes and assessments and concluded
the levy in this case was a special assessment. Id. 1418 ¶¶29-33. The courts below followed similar precedent to that cited in the petition, which agree with the
above definitions and distinctions between assessments and general taxes.
This tax was not imposed for “general” government
purposes. It was imposed exclusively to finance specific public improvements benefiting only the European Village.
D. Myles Salt does not stand-alone, it fits
within the continuum of this Court’s
state-tax, due process precedent.
This Court’s decisions and others cited in the petition almost uniformly fit a particular pattern. First,
the reviewing court asks the purposes of the levy and

19
the taxing entity. From that inquiry, the court determines whether the exaction is a general tax or a special assessment. Then the courts apply the applicable
due process holdings for the type of tax (general tax or
special assessment). Myles Salt fits that same rubric.
There, the Court looked at the purpose of the imposition, not the ad valorem tax label. Since the purpose of
the tax fit the Court’s definition of special assessments,
it concluded that due process barred taxation of the
salt company, which could never benefit from the special district’s improvements. The same holds true here.
In sum, Myles Salt does not stand alone. Instead, it
is an important part of the overall jurisprudence construing state taxes under the Due Process Clause.
E. The case presents no conflicts between
lower courts, nor any conflict between
the state-court decision and any decision
or decisions of this Court.
A quick search of the petition reveals that it does
not contain the word conflict. This stands to reason,
since the petition does not argue, nor could it argue
that a conflict exists between circuit decisions, state
court decisions, or the lower court’s decision and this
Court’s precedent.
The trial court explained that under Colorado law,
when the nature of a levy is at issue, courts “may evaluate the circumstances and operative aspects of the
charge to determine its actual nature.” Pet. App. 159
(citing Bloom v. Fort Collins, 784 P.2d 304 (Colo. 1990);
Littleton v. State, 855 P.2d 448 (Colo. 1993). The court of
appeals applied the same legal standard, citing a string
of holdings from this Court and other states, Id. 13-14
¶27, and a string of Colorado holdings including Bloom
and Littleton, Id. 14-18 (¶¶29-33) (citing and applying

20
numerous opinions from this Court, Colorado, Federal
Circuit Courts of Appeal, other states, and treatises).
The court of appeals carefully distinguished general improvements from local ones and explained why this the
improvements here were local. Id. 16-18 (¶¶32-33).
2. The opinion below faithfully applied Myles
Salt, which correctly states that due process
does not allow a special district to tax one
property solely to benefit another
A. On review for clear error, the Court should
accept the trial court’s evidence-based
fact-findings, which were affirmed below.
The unique and extreme facts of this case necessarily make the Court’s decision a fact-bound determination. “Whether, and to what extent, property to be assessed has specially benefited by an improvement is a
question of fact.” 70C Am. Jur. 2d Special or Local Assessments § 26 at n.1 (citing Briscoe v. Rudolph, 221
U.S. 547, 550-51 (1911)). Unless the petitioners can
overcome the evidence-based fact-finding below,9 they
cannot prevail here.
Petitioners do not specifically advocate for any review of the facts. Instead, the petition mentions irrelevant facts, misstates facts and indirectly challenges
some of the fact-finding. See, e.g., Pet 18 n.7 (says developer owned the land when the District formed, but
this is irrelevant to the taxation of the Landmark
owners), Pet. 21 (“Court of Appeals placed an inordinate amount of emphasis on the alleged motives for
E.g., Pet. App. 109 (“All findings of fact have been proved by
a preponderance of the evidence . . .”); 5 (¶8) (mentioning maps);
12 (¶25) (“And, as the district court found, with record support,
the Landmark Project receives no benefit, direct or indirect.”); 22
(¶40) (listing facts from record).
9

21
including the Landmark property in the District . . .”),
Pet. 27-28 (addressed below).
This Court typically defers to state court fact-finding,
except in “exceptional circumstances.” Hernandez v.
New York, 500 U.S. 352, 366 (1991). Absent such circumstances, the Court defers “to state-court factual
findings, even when those findings relate to the constitutional issue before this Court.” Id. Even if there were
“two permissible views of the evidence, the fact-finder’s
choice between them cannot be clearly erroneous.” Id.
at 369 (quoting Anderson v. Bessemer City, 470 U.S.
564, 574 (1985)). Finally, this is a court of law and not
a fact-correction court, so after an appellate panel has
already concurred in the trial court’s fact-finding, the
Court “cannot undertake to review concurrent findings
of fact by two courts below in the absence of a very obvious and exceptional show of error.” Exxon Co. v. Sofec,
517 U.S. 830, 841 (1996) (quoting and citing cases).
Without attempting to challenge head-on the extensive fact-finding below, the petition claims the facts in
this case differ from those in Myles Salt. But the trial
court expressly found, as a matter of fact, that “[i]n
this case, a situation fundamentally identical to Myles
Salt exists.” Pet. App. 164.
The petition repeatedly cites to the truncated part of
the Service Plan included in the petitioners’ appendix
for factual assertions that contradict the unmistakable
fact-finding below. For instance, without regard to the
trial and appellate courts’ fact-finding (referring to the
Supplement and maps), the petition quotes the Service
Plan to falsely say that the District provided public
benefits. Pet. 27-28. Rather, the District did not provide a general public benefit. Id. 5 (¶8). It was a local
taxing district, id., conceived to provide a “special benefit” to the European Village, id. 164-65, and “to en-

22
hance the value of [that] privately owned property for
later resale to the public,” id. 160-162.
Additionally, to the extent the petition implies that
Bondshares’ customers may suffer from the injunction, the courts below refuted that argument and concluded, based on the evidence, that Bondshares had a
vastly inferior equitable position to the Landmark
owners. Id. 20-23 (¶¶38-41), 150-52.
In each of these attempts at an end-run around the
fact-finding below, the petition fails to overcome the
clear error standard. Petitioners make no direct assertion of errors in the findings of fact below, let alone
a “very obvious and exceptional showing of error.” Id.
The Court should reject these efforts to avoid the
findings of fact by the courts below.
B. As a Colorado special district, this District
was intended to provide public
improvements only to Marin subdivision,
and was restricted by its service plan from
providing improvements to Landmark.
Colorado special districts, including the District in
this case, are virtually identical to the types of districts for which the petition says courts properly apply
what petitioners call “special district law.”
Colorado special districts are creatures of state law,
designed to provide limited public improvements and
services with, as important here, special assessments
or tax levies also governed by state law. See Colo. Rev.
Stat. §§ 32-1-101 (2007), et seq. Metropolitan districts
are not general governmental entities such as states,
counties, or municipalities. Id. 33-34 (¶66). They do
not have plenary government powers. Colo. Rev. Stat.
§§ 32-1-1001, -1004 (2007). App. 13a, 17a. Instead, they

23
are limited to providing the improvements and services
allowed under the district’s service plan that must be
approved by either a county or a municipality.
The District in this case, is a metropolitan district,
which is a Colorado special district that provides two
or more of the services that a single-purpose district
would provide. Colo. Rev. Stat. § 32-1-103(10) (2007)
App. 9a. (listing types of services). The District is just
15 acres, comprising about 0.3 percent of the city. Pet.
App. 17 (¶33 n.6). Its “central purpose was not to create
a public entity providing services for residents of the
district. The area to be serviced as very small and local
. . . The special district was created to enhance the value of the developer’s privately owned property . . .” Id.
161. The City approved the District to provide local improvements, including streets, sidewalks, curbs and
gutters, water and sanitation lines, and landscaping.”
Id. 112. The District never provided these or any other
improvements to the Landmark, Id. 144-46. The District was barred from doing so. Id. 160-62.
In sum, just like the “service districts” that the petition attempts to distinguish, this District existed only to
provide specific improvements for particular property
(the European Village) in a small geographic area. The
District did not provide general public improvements.
C. Myles Salt is indistinguishable from the
facts here and clearly supports the
opinion of the Colorado court of appeals.
Recall that the evidence showed: (1) Landmark’s
improvements were already publicly-funded through
an STRA and DIA; (2) the Service Plan Supplement
precluded the District from providing infrastructure
to Landmark; (3) The Service Plan maps showed no
District improvements benefited Landmark; and (4)

24
only the European Village would ever benefit from
the District.
The principle that confiscation of property through
taxation deprives property owners of due process is
well established in both federal and Colorado law.
Myles Salt, supra; N.C. Dep’t of Revenue, 139 S. Ct. at
2219-20; Denver v. Greenspoon, 344 P.2d 679 (Colo.
1959); Reams v. Grand Junction, 676 P.2d 1189, 119495 (Colo. 1984). If this were an ordinary district, where
all the property owners or the general public could
benefit from the public improvements or services,
there would be no due process issue.
As the petition admits, in Myles Salt “[t]here was no
benefit for the ‘common good.’ ” Pet. 20. The same holds
true here. “In this case,” explained the trial court, “a
situation fundamentally identical to Myles Salt exists.” Pet. App. 164. The appellate panel affirmed that
finding, since these facts “can’t be distinguished from
those in Myles Salt in any principled way.” Id. 14 (¶28).
The linchpin of the trial court’s orders and the opinion
below is that it violates due process to tax one person’s
property with no possibility of benefitting that property
and solely to improve another property. This is particularly true when the taxed property owners were intentionally excluded from notice of proceedings that could
subject their property to taxation and were not notified
of a privately-conducted election. Not surprisingly, wellestablished U.S. Supreme Court and Colorado precedent
holds this amounts to confiscation and violates due process. E.g., Myles Salt, 239 U.S. at 485; Greenspoon, 344
P.2d at 681; Reams, 676 at 1194-95.
In Myles Salt, commercial property was included in a
district and subjected to a 5-mill ad valorem tax levy for
40 years to support bonds “solely with the view of deriv-

25
ing revenues from the assessment . . . and only for the
benefit of the other properties.” 239 U.S. at 482. Inclusion of that property in the district was a “usurpation of
authority and an effort to take plaintiff’s property without due process of law.” Id. at 483. “A like charge is made
as to the assessment of the tax and its collection.” Id.
Courts must defer to legislative statements about
the benefit a property will receive from a local improvement. Branson v. Bush, 251 U.S. 182, 189 (1919).
Such determinations are presumed to have a rational
basis if conceivable facts support them, Decatur, 295
U.S. at 170, and can only be assailed if they are arbitrary, wholly unwarranted, or result from a flagrant
abuse of discretion. Branson, 251 U.S. at 189-90 (citing cases). This rule “compliments” the holdings in
Norwood, Myles Salt, and Gast. Id. at 190.
Here, the City approved the Service Plan—the District’s charter—with clear findings that cabined this
case. See Decatur, 295 U.S. at 170 (court must consider
the evidence of no benefits). The undisputed relevant
facts here directly correlate to the facts in Myles Salt.
The District’s Service Plan identified no public improvements that could be constructed in the Landmark
subdivision. Maps attached to the Service Plan showed
the Landmark properties would not benefit from inclusion in the district. And the Service Plan Supplement
prohibited the District from funding Landmark infrastructure—meaning the Landmark could not benefit
directly or indirectly from its inclusion in the District.
Landmark was included solely to be taxed to improve
another subdivision. Thus, the situation here is extreme and unusual. This is precisely the case that was
before the U.S. Supreme Court in 1916 when a small
district in Louisiana included Myles Salt Company in
a drainage district to impose an ad valorem tax on it
even though it could not benefit.

26
Petitioners also challenge the application of Myles
Salt on the basis that the Landmark purchasers were
only under contract to purchase their properties at the
time the developers surreptitiously created the District. That is a distinction without a difference. The
Landmark owners had a contractual interest in that
property, and equitable title. See Brush Grocery Kart,
Inc. v. Sure Fine Mkt., Inc., 47 P.3d 680, 683 (Colo.
2002) (contract purchaser considered to be equitable
owner); Pet. App. 81 (¶65), overruled on other grounds.
Myles Salt is settled law on point. No compelling
reason exists for this Court to grant certiorari review
to upend the holding in Myles Salt.
Finally, petitioners argue that the District could not
legally impose an assessment until 2009. The court of
appeals readily dispensed with that argument, explaining, that “doesn’t mean it didn’t do so. As discussed, the nature of a levy is determined by its purpose and characteristics. If [those] show that it’s an
assessment, then that’s what it is.” Pet. App. 18 (¶34
n.7). “[E]ven if the defendants are right about the
state of the law at the time of the election,” the panel
concluded, “that only means that there’s another reason for declaring the special assessment invalid.” Id.
3. Alternative grounds exist upon which to
affirm the decision below.
A. Reversal of the holding that the tax
violated the federal Due Process Clause
would not reverse the alternative holding
that the tax also violated Colorado’s Due
Process Clause.
Colorado’s Due Process Clause says: “No person
shall be deprived of life, liberty, or property, without
due process of law.” colo. consT., art. II Sec. 25.

27
States’ interpretations of their own due process
clauses may differ from federal interpretations of
the Due Process Clauses of the Fifth and Fourteenth
Amendments. People ex rel. Juhan, 439 P.2d 741,
745 (Colo. 1968). Colorado’s “due process clause . . .
requires at a minimum the same guarantees as those
protected by the due process clause of the United
States Constitution.” Air Pollution Variance Bd. v.
Western Alfalfa Corp., 191 Colo. 455, 461, 553 P.2d
811, 816 (1976). “The state may enlarge the federal
concept of due process, but it may not abridge those
rights.” Vega v. People, 893 P.2d 107, 110 (1995) (citing Juhan 439 P.2d at 745. If a “state action does not
deny a right protected under the federal concept of
due process, or impose a liability prohibited thereby,
the federal power will not nullify the rights and protections which, within the state, are recognized as
part and parcel of due process under the state constitution.” Juhan, 439 P.2d at 745-46 (“that is exactly what happened in Leland v. Oregon, 343 U.S.
790 [(1952)]. See Snyder v. Mass., 291 U.S. 97
[(1934)]. Id. at 745-46.)”
Under Colorado law, this was a special assessment.
Pet. App. 15 (¶30) (citing Littleton, 855 P.2d at 453;
Bloom, 784 P.2d at 307-08); 159 (same), 17-18 (¶33)
(citing Bloom, 784 P.2d at 307). As the court of appeals explained: “Colorado law makes clear that imposing a special assessment on property that doesn’t
specially benefit from the funded improvements violates those property owners’ rights to due process.”
Pet. App. 14 (¶29) (citing Reams, 676 P.2d at 1194-95;
Ochs v. Hot Sulphur Springs, 407 P.2d 677, 780 (1965);
Greenspoon, 344 P.2d at 681). The District’s taxation
of the Landmark properties violated both the federal
and Colorado Due Process clauses. Pet. App. 25-26
(para. 49 & n.12).

28
The court of appeals correctly notes that violation of
the federal constitution trumps a state constitutional
violation. Id. (Citing cases). But if the Court were to
reverse the holding that the tax violated the federal
Due Process Clause, the Colorado constitutional violation would stand. See Juhan, 439 P.2d at 745-46; Vega,
893 P.2d at 110.
The petition does not address this fatal problem.
Certiorari should be denied.
B. The Colorado court of appeals also
affirmed the trial court’s declaratory
judgment and injunction against further
taxation on independent state law
grounds.
The Colorado court of appeals also affirmed the trial
court’s declaratory judgment finding that the District’s
59.5-mill levy violated the Service Plan since the mill
levy illegally exceeded the financial plan’s mill levy
limit. The trial court’s injunction against further taxation in violation of the 49.5-mill limit stands and precludes the District from further taxation of any property in the district at the 59-5-mill rate. The petition
omits this alternative state-law ground for relief.
“[A] special district’s mill levy . . . must comply with
the applicable Service Plan.” Pet. App. 27 (¶54). The
Service Plan’s financing plan, which had binding effect, limited the district’s levy to 49.5 mills. Id. 6 (¶11),
28 (¶56), 137.10 Another section of the Service Plan
required City approval for debt service that does not
Another section of the Service Plan said the limitation was
50 mills. See Pet. App. 26 (¶51), 135, 137; 188-89 (§ VIII.D.9). But
the court of appeals concluded the 49.5-mill-limit applied. Pet.
App. 6 (¶11), 28 (¶56).
10

29
generally conform to the terms of the financial plan,
Id. 28 (¶55). Despite the 49.5-mill limitation, Id. 6
(¶11), 28 (¶¶55-56), the District imposed a mill-levy of
59.5 mills in 2009 to 2013, which was “ ‘a substantial
and significant variance from the pro forma model
materially affecting’ the Landmark owners . . .” Id. 28
(¶56) (quoting Id. 137).
Affirming the trial court, the appellate panel concluded, “its undisputed the bonds were issued as ‘limited tax’ bonds, not ‘unlimited tax bonds.’ ” Id. 28 (¶54
n. 13). Also, “the district court correctly found that the
Service Plan doesn’t permit a levy of 59.5 mills.” Id. 27
(¶53). “And it’s undisputed that the District didn’t obtain [the City’s] approval to impose the 59.5-mill-levy
rate. It necessarily follows that the District violated
the Service Plan, and it then follows that the 59.5-millrate levy is illegal.” Id. 29 (¶56)
The petition to this Court fails to address this alternative state-law grounds for affirming the holding below.
C. Alternative federal law grounds for
affirmance exist.
In Landmark II, Id. 36-53, the Colorado supreme
court held that 1) Colo. Rev. Stat. § 1-11-213(4) (2007)
(App. 1a) was a non-claim statute that jurisdictionally
barred Landmark’s challenge of election results approving the District’s bonds more than 10 days after
the results were certified; 2) as a non-claim statute, it
was not subject to equitable tolling; and 3) the exception in Cacioppo v. Eagle County School Dist. RE-50J,
92 P.3d 453 (Colo. 2004) did not apply.
Landmark petitioned for rehearing since the Court
did not address in its opinion whether constitutional

30
due process could mandate a remedy where an election was intentionally conducted so as to disenfranchise the electorate and prevent the electorate from
learning of the election before the 10-day time limit
for a challenge expired.
Landmark argued that the jurisdictional bar of
§ 1-11-213(4) was not absolute where foreclosing an
election challenge would result in an intentional deprivation of substantive constitutional rights for
which there was no remedy.
Colorado allows two types of special district elections: coordinated elections, conducted by County
Clerks, and non-coordinated (private) elections, independently conducted by a district’s board-appointed
DEO. In coordinated elections, the County Clerk ensures and protects due process by mailing ballots or
providing notice to all eligible electors. In private elections, due process guarantees may fall upon the developer/DEO, who under Colorado’s Constitution must
provide notice to all eligible electors and ensure their
right to vote on measures seeking approval of taxes
levied on the district.
This election was not a coordinated election (as most
are). That distinction matters. It narrows the holding.
Here, in a privately-conducted election, the District’s developer was the DEO and he ensured that
only he and his affiliates received notice and were allowed to vote to approve debt after he fraudulently
replaced the eligible electors (the Landmark buyers)
with ineligible electors (the Developer’s cronies). This
switch allowed the District to impose taxation without
representation on the Landmark buyers. Pet. App. 7481 (¶¶54-64).

31
By applying the § 1-11-213(4) time-bar here, Landmark II means that even when a DEO fraudulently
denies all eligible electors their due process rights and
substantive rights to vote, and then keeps the election
results secret for just 10 days, those secretly disenfranchised voters have no recourse under the U.S. or
Colorado Constitutions.
Neither Landmark II, nor Cacioppo, addresses the
unique due process concerns courts face in reviewing
challenges to private elections like this one versus
what occurs in public coordinated elections. This case
provides a good vehicle for providing clear guidance
for explaining those differences and ensuring constitutional rights are protected, while addressing a constitutional, as-applied challenge to the jurisdictional
bar in § 1-11-213(4).
Longstanding precedent recognizes that Constitutional guarantees, such as due process and other constitutional rights, cannot give way to application of a
statutory enactment that fully denies those rights. See
Passarelli v. Shoettler, 742 P.2d 867, 872 (Colo. 1987)
(when in conflict, the “constitution is paramount law”);
White v. Davis, 428 P.2d 909, 910 (Colo. 1967) (“elementary that the requirements of due process of law
under both the United States and Colorado Constitutions takes precedence over statutory enactments. . . .
This, of necessity, includes any bar to inquiry as may
be provided in the statute, to those essential elements
of due process including proper notice . . .”).
Other Colorado opinions recognize that although
non-claim statutes similar to § 1-11-213(4), are not
subject to equitable tolling, they allow exceptions
when intentional fraud deprives a person’s due process rights See, e.g., In re: CLS, 252 P.3d 556, 560,
561-62 (Colo. Ct. App. 2011) (holding a statutory time-

32
bar affecting parental rights, which cannot be challenged on any basis, including fraud, must yield to due
process requirements); Burns v. Dist. Ct., 356 P.2d
245, 266 (Colo. 1960) (time restriction limiting election
challenges is proper unless it is so unreasonably short
as to destroy the substance of a constitutionally guaranteed remedy).
In the face of an as-applied constitutional challenge,
Landmark II applies a non-claim statute to bar all equitable defenses and prohibit initiation of litigation
after the prescribed date. Pet. App. 47-48 (¶¶27-31).
To reach that result, the Opinion rests on an interpretation of § 1-11-213(4) that would clearly apply to an
equitable defense if the contestor (a) knew of the election, (b) could have met the 10-day time-bar, (c) failed
to do so, and (d) thus, had sufficient process in application of the non-claim statute.
But the facts here contrast with that analysis. In
this constitutional, as-applied defense to § 1-11-213(4),
the contestor (a) did not know of the election because
the Developer/DEO purposely and fraudulently deprived the contestor of that knowledge or concealed it
in violation of due process, (b) could not possibly have
met the 10-day time bar, (c) failed to do so, and (d)
thus, had no due process in application of the nonclaim statute.
In bond elections like this, any restriction of the
franchise on grounds other than residence, age, and
citizenship cannot stand absent a compelling state interest. Hill v. Stone, 421 U.S. 289, 297 (1975). Here,
the Colorado court of appeals reversed the trial court’s
finding that the Landmark owners were not qualified
electors. Pet. App. 81-83 (¶¶66-70). In doing so, the
panel rejected findings that they were unqualified due

33
to residence issues. Id. The electors’ ages and citizenship were never factors here.
By treating this situation as analogous to an equitable challenge where contestors knew of an election
but slept on their rights, Landmark II elevates the
statute as paramount over constitutional guarantees.
This result runs contrary to both Passarelli and White.
The court denied the rehearing petition.
4. The petition overstates the reach of the
Colorado opinion, which is limited to the
unique facts in Myles Salt and this case.
Myles Salt has stood for over 100 years and has not
created havoc. Its sound reasoning and application
protect property owners from illegal confiscations.
Landmark III merely applied that holding to invalidate an illegal tax.
Due to the unique and unusual facts of this case and
Myles Salt, there is no danger of incorrect application
of either case to other local improvement taxing districts throughout Colorado or the United States. Since
fall 2013, when the district court entered its injunctions, bonds have regularly issued throughout Colorado without a known impact due to the rare issues in
this case. In Colorado since Landmark, the creation of
special districts and their bonded indebtedness have
rapidly expanded and there is no indication that this
is anything more than an unusual “one-off” case. E.g.,
Schrader, Megan, Colorado Keeps Allowing Developers to Tax Homeowners for Infra-structure—and it’s
Out of Control, Denver PosT, Feb. 22, 2019, https://
www.denverpost.com/2019/02/22/Colorado-taxingdistricts-out-of-control. And petitioners cite just one re-

34
cently-filed case that has raised similar objections to
taxation by a special district.
The petition asks for an exception for ad valorem
taxes. But such an “exception” would swallow the
Court’s state law due process jurisprudence whole. It
would enable abusive transfers of wealth by allowing
the inclusion of high-value property (skyscrapers, office parks, shopping centers) in special improvement
districts, simply to tax that property to pay for improvements benefiting other private property.
The decision below merely applies principles previously approved by this Court and applies them correctly. And even if the Court could conclude that the
Colorado courts incorrectly applied the facts in this
case to Myles Salt, that is not a good reason for review
since this court typically does not review incorrect application of facts to correct statements of law.
Additionally, the problem asserted in the petition
is, at best, episodic or academic in nature. While understandably important to these parties, it simply applies Myles Salt and will have no great public impact.

35
CONCLUSION
The petitioners acknowledge that Myles Salt was an
unusual “one-off” case with unique facts. So is this
case. The comparison between the two is apt. And the
application of Myles Salt was sound. For the reasons
set forth above, the petition lacks the gravitas necessary for this Court’s discretionary review. So this
Court should deny the petition.
Respectfully submitted,
BrIan K. MaTIse
Counsel of Record
Nelson Boyle
BUrg sIMpson
Eldredge Hersh & JardIne P.c.
40 Inverness Drive East
Englewood, CO 80112
(303) 792-5595
bmatise@burgsimpson.com
Date: October 22, 2019.

1a
APPENDIX A
Colo. Rev. Stat. 1-11-213(4) (2007)
1-11-213. Rules for conducting contests in district court
(1) The style and form of process, the manner of service of process and papers, the fees of officers, and
judgment for costs and execution shall be according
to the rules and practice of the district court.
(2) Change of venue may be taken from any district
court for any cause in which changes of venue might
be taken in civil or criminal actions. The decisions
of any district court are subject to appellate review
as provided by law and the Colorado appellate rules.
(3) Before the district court is required to take jurisdiction of the contest, the contestor shall file with
the clerk of the court a bond, with sureties, running
to the contestee and conditioned to pay all costs in
case of failure to maintain the contest. The judge
shall determine the sufficiency of the bond and, if it
is sufficient, approve it.
(4) The contestor, within ten days after the official
survey of returns has been filed with the designated
election official, shall file in the office of the clerk of
the district court a written statement of the intention to contest the election, setting forth the name of
the contestor, that the contestor is an eligible elector
of the political subdivision, the name of the contestee, the office or ballot issue or ballot question being
contested, the time of the election, and the particular grounds for the contest. The statement shall be
verified upon information and belief by the affidavit
of the contestor or of an eligible elector of the political subdivision. If the contest is based upon a ballot
issue or ballot question, the political subdivision or

2a
subdivisions for which the ballot issue or ballot
question was decided shall be named as a contestee.
If a written statement of intent to contest the election is filed more than ten days after the completion
of the official survey of returns, no court shall have
jurisdiction over the contest.
(5) The clerk of the district court shall then issue a
summons in the ordinary form, in which the contestor shall be named as plaintiff and the contestee as
defendant, stating the court to which the action is
being brought, the political subdivision for which
the contest is filed, and a brief statement of the
grounds for contest as set forth in the contestor’s
statement. The summons shall be served upon the
contestee and political subdivision in the same
manner as other district court summonses are
served in this state, within ten days after the statement of intention is filed.
(6) The contestee, within ten days after the service
of the summons, shall file an answer with the clerk
of court, which admits or specifically denies each
allegation of the statement and asserts any counterstatement on which the contestee relies as entitling him or her to the office to which elected.
(7) If a contestor alleges the reception of illegal
votes or the rejection of legal votes as the grounds
for the contest, a list of the eligible electors who so
voted or offered to vote shall be set forth in the
statement of the contestor and likewise in the answer of contestee if the same grounds are alleged in
the counterstatement.
(8) When the answer of the contestee contains a
new matter constituting a counterstatement, within ten days after the answer is filed, the contestor

3a
shall file a reply with the clerk of court admitting or
specifically denying, under oath, each allegation
contained in the counterstatement.

5a
APPENDIX B
Colo. Rev. Stat. 32-1-103(10) (2007)
32-1-103. Definitions
As used in this article, unless the context otherwise
requires:
(1) “Ambulance district” means a special district
which provides emergency medical services and
the transportation of sick, disabled, or injured
persons by motor vehicle, aircraft, or other form
of transportation to and from facilities providing
medical services. For the purpose of this subsection (1), “emergency medical services” means services engaged in providing initial emergency
medical assistance, including, but not limited to,
the treatment of trauma and burns and respiratory, circulatory, and obstetrical emergencies.
***
(2) “Court” means the district court in any county in which the petition for organization of the
special district was originally filed and which entered the order organizing said district or the district court to which the file pertaining to the special district has been transferred pursuant to
section 32-1-303 (1) (b).
***
(3) “Director” means a member of the board.
(4) “Division” means the division of local government in the department of local affairs.
(5) (a) “Eligible elector” means a person who, at
the designated time or event, is registered to vote
pursuant to the “Uniform Election Code of 1992”,
articles 1 to 13 of title 1, C.R.S., and:

6a
(I) Who has been a resident of the special
district or the area to be included in the special district for not less than thirty days; or
(II) Who, or whose spouse, owns taxable real
or personal property situated within the
boundaries of the special district or the area
to be included in the special district, whether
said person resides within the special district
or not.
(b) A person who is obligated to pay taxes under a contract to purchase taxable property
situated within the boundaries of the special
district or the area to be included within the
special district shall be considered an owner
within the meaning of this subsection (5).
(c) Repealed.
(d) For all elections and petitions that require
ownership of real property or land, a mobile
home as defined in section 38-12-201.5 (2) or
5-1-301 (29), C.R.S., or a manufactured home
as defined in section 42-1-102 (106) (b), C.R.S.,
shall be deemed sufficient to qualify as ownership of real property or land for the purpose of
voting rights and petitions.
(e) In the event that the board, by resolution,
ends business personal property taxation by
the district pursuant to subsection (8) (b) of
section 20 of article X of the state constitution,
persons owning such property and spouses
thereof shall not be eligible electors of the district on the basis of ownership of such property.
(6) Repealed.

7a
(6.5) “Financial institution or institutional investor” means any of the following, whether acting for itself or others in a fiduciary capacity:
(a) A depository institution;
(b) An insurance company;
(c) A separate account of an insurance company;
(d) An investment company registered under
the federal “Investment Company Act of 1940”;
(e) A business development company as defined in the federal “Investment Company Act
of 1940”;
(f) Any private business development company as defined in the federal “Investment Company Act of 1940”;
(g) An employee pension, profit-sharing, or benefit plan if the plan has total assets in excess of
five million dollars or its investment decisions
are made by a named fiduciary, as defined in the
federal “Employee Retirement Income Security
Act of 1974”, that is a broker-dealer registered
under the federal “Securities Exchange Act of
1934”, an investment adviser registered or exempt from registration under the federal “Investment Advisers Act of 1940”, a depository
institution, or an insurance company;
(h) An entity, but not an individual, a substantial part of whose business activities consists of investing, purchasing, selling, or trading in securities of more than one issuer and
not of its own issue and that has total assets in
excess of five million dollars as of the end of its
last fiscal year; and

8a
(i) A small business investment company licensed by the federal small business administration under the federal “Small Business Investment Act of 1958”.
(7) “Fire protection district” means a special district which provides protection against fire by any
available means and which may supply ambulance and emergency medical and rescue services.
(7.5) “Forest improvement district” means a special district created pursuant to article 18 of this
title that protects communities from wildfires and
improves the condition of forests in the district.
(8) “Governing body” means a city council or
board of trustees and includes a body or board
where the operation and management of service
is under the control of a municipal body or board
other than a city council or board of trustees.
(8.5) “Health assurance district” means a special
district that is created to organize, operate, control, direct, manage, contract for, furnish, or provide, directly or indirectly, health care services to
residents of the district and family members of
such residents who are in need of such services.
(9) “Health service district” means a special district that may establish, maintain, or operate, directly or indirectly through lease to or from other
parties or other arrangement, public hospitals,
convalescent centers, nursing care facilities, intermediate care facilities, emergency facilities, community clinics, or other facilities licensed or certified pursuant to section 25-1.5-103 (1) (a), C.R.S.,
providing health and personal care services and
may organize, own, operate, control, direct, manage, contract for, or furnish ambulance service.

9a
(9.5) “Mental health care service district” means
a special district created pursuant to this article
to provide, directly or indirectly, mental health
care services to residents of the district who are
in need of mental health care services and to family members of such residents.
(10) “Metropolitan district” means a special district that provides for the inhabitants thereof any
two or more of the following services:
(a) Fire protection;
(b) Mosquito control;
(c) Parks and recreation;
(d) Safety protection;
(e) Sanitation;
(f) Solid waste disposal facilities or collection
and transportation of solid waste;
(g) Street improvement;
(h) Television relay and translation;
(i) Transportation;
(j) Water.
(11) “Municipality” means a municipality as defined in section 31-1-101 (6), C.R.S.
***
(14) “Park and recreation district” means a special district which provides parks or recreational
facilities or programs within said district.
(14.5) “Property owners’ list” means the list furnished by the county assessor in accordance with
section 1-5-304, C.R.S., showing each property

10a
owner within the district, as shown on a deed or
contract of record.
***
(17) “Regular special district election” means the
election on the Tuesday succeeding the first Monday of May in every even-numbered year, held
for the purpose of electing members to the boards
of special districts and for submission of other
public questions, if any.
(17.5) (Deleted by amendment, L. 92, p. 874,
§ 105, effective January 1, 1993.)
(18) “Sanitation district” means a special district
that provides for storm or sanitary sewers, or
both, flood and surface drainage, treatment and
disposal works and facilities, or solid waste disposal facilities or waste services, and all necessary or proper equipment and appurtenances incident thereto.
(19) “Secretary” means the secretary of the board.
(19.5) “Solid waste” shall have the same definition as specified in section 30-20-101 (6), C.R.S.
(20) “Special district” means any quasi-municipal
corporation and political subdivision organized or
acting pursuant to the provisions of this article.
“Special district” does not include any entity organized or acting pursuant to the provisions of article 8 of title 29, article 20 of title 30, article 25 of
title 31, or articles 41 to 48 of title 37, C.R.S.
(21) “Special election” means any election called
by the board for submission of public questions
and other matters. The election shall be held on
the first Tuesday after the first Monday in Febru-

11a
ary, May, October, or December, in November of
even-numbered years or on the first Tuesday in
November of odd-numbered years. Any special
district may petition a district court judge who
has jurisdiction in such district for permission to
hold a special election on a day other than those
specified in this subsection (21). The district court
judge may grant permission only upon a finding
that an election on the days specified would be
impossible or impracticable or upon a finding
that an unforeseeable emergency would require
an election on a day other than those specified.
(22) “Taxable property” means real or personal
property subject to general ad valorem taxes.
“Taxable property” does not include the ownership of property on which a specific ownership
tax is paid pursuant to law.
(23) (a) “Taxpaying elector” means an eligible
elector of a special district who, or whose spouse,
owns taxable real or personal property within
the special district or the area to be included in or
excluded from the special district, whether the
person resides within the special district or not.
(b) A person who is obligated to pay taxes under a contract to purchase taxable property
within the special district shall be considered
an owner within the meaning of this subsection (23).
(c) For all elections and petitions that require
ownership of real property or land, a mobile
home as defined in section 38-12-201.5 (2) or
5-1-301 (29), C.R.S., or a manufactured home
as defined in section 42-1-102 (106) (b), C.R.S.,
shall be deemed sufficient to qualify as owner-

12a
ship of real property or land for the purpose of
voting rights and petitions.
***
(23.5) “Tunnel district” means a special district
which provides a tunnel.
(24) “Water and sanitation district” means a special district which provides both water district
and sanitation district services.
(25) “Water district” means a special district
which supplies water for domestic and other public and private purposes by any available means
and provides all necessary or proper reservoirs,
treatment works and facilities, equipment, and
appurtenances incident thereto.

13a
APPENDIX C
Colo. Rev. Stat. 32-1-1001 (2007)
32-1-1001. Common powers—definitions
(1) For and on behalf of the special district the
board has the following powers:
(a) To have perpetual existence;
(b) To have and use a corporate seal;
(c) To sue and be sued and to be a party to suits,
actions, and proceedings;
(d)
(I) To enter into contracts and agreements affecting the affairs of the special district except
as otherwise provided in this part 10, including contracts with the United States and any
of its agencies or instrumentalities. Except in
cases in which a special district will receive aid
from a governmental agency or purchase
through the state purchasing program, a notice shall be published for bids on all construction contracts for work or material, or both,
involving an expense of sixty thousand dollars
or more of public moneys. The special district
may reject any and all bids, and, if it appears
that the special district can perform the work
or secure material for less than the lowest bid,
it may proceed to do so.
(II) No contract for work or material including
a contract for services, regardless of the
amount, shall be entered into between the special district and a member of the board or between the special district and the owner of
twenty-five percent or more of the territory

14a
within the special district unless a notice has
been published for bids and such member or
owner submits the lowest responsible and responsive bid.
(e) To borrow money and incur indebtedness and
evidence the same by certificates, notes, or debentures, and to issue bonds, including revenue
bonds, in accordance with the provisions of part
11 of this article, and to invest any moneys of the
special district in accordance with part 6 of article 75 of title 24, C.R.S.;
(f) To acquire, dispose of, and encumber real and
personal property including, without limitation,
rights and interests in property, leases, and
easements necessary to the functions or the operation of the special district; except that the
board shall not pay more than fair market value
and reasonable settlement costs for any interest
in real property and shall not pay for any interest in real property which must otherwise be
dedicated for public use or the special district’s
use in accordance with any governmental ordinance, regulation, or law;
(g) To refund any bonded indebtedness as provided in part 13 of this article or article 54 or 56
of title 11, C.R.S.;
(h) To have the management, control, and supervision of all the business and affairs of the special
district as defined in this article and all construction, installation, operation, and maintenance of
special district improvements;
(i) To appoint, hire, and retain agents, employees, engineers, and attorneys;

15a
(j)
(I) To fix and from time to time to increase or
decrease fees, rates, tolls, penalties, or charges
for services, programs, or facilities furnished
by the special district; except that fire protection districts may only fix fees and charges as
provided in section 32-1-1002 (1) (e). The board
may pledge such revenue for the payment of
any indebtedness of the special district. Until
paid, all such fees, rates, tolls, penalties, or
charges shall constitute a perpetual lien on
and against the property served, and any such
lien may be foreclosed in the same manner as
provided by the laws of this state for the foreclosure of mechanics’ liens.
(II) Notwithstanding any other provision to
the contrary, the board may waive or amortize
all or part of the tap fees and connection fees
or extend the time period for paying all or part
of such fees for property within the district in
order to facilitate the construction, ownership,
and operation of affordable housing on such
property, as such affordable housing is defined
by resolution adopted by the board.However,
the board shall have the authority to condition such waiver, amortization, or extension
upon the recordation against the property of a
deed restriction, lien, or other lawful instrument requiring the payment of such fees in
the event that the property’s use as affordable
housing is discontinued or no longer meets the
definition of affordable housing as established
by the board.
(k) To furnish services and facilities without the
boundaries of the special district and to establish

16a
fees, rates, tolls, penalties, or charges for such
services and facilities;
(l) To accept, on behalf of the special district, real
or personal property for the use of the special district and to accept gifts and conveyances made to
the special district upon such terms or conditions
as the board may approve;
(m) To adopt, amend, and enforce bylaws and
rules and regulations not in conflict with the constitution and laws of this state for carrying on
the business, objects, and affairs of the board and
of the special district;
(n) To have and exercise all rights and powers
necessary or incidental to or implied from the
specific powers granted to special districts by this
article. Such specific powers shall not be considered as a limitation upon any power necessary or
appropriate to carry out the purposes and intent
of this article.
(o) To authorize the use of electronic records or
signatures and adopt rules, standards, policies,
and procedures for use of electronic records or signatures pursuant to article 71.3 of title 24, C.R.S.

17a
APPENDIX D
Colo. Rev. Stat. 32-1-1004 (2007)
32-1-104. Metropolitan districts—additional powers
and duties
(1) In addition to the powers specified in section 321-1001, the board of any metropolitan district has the
following powers for and on behalf of such district:
(a) To enter into contracts with public utilities, cooperative electric associations, and municipalities
for the purpose of furnishing street lighting service;
(b) To erect and maintain, in providing safety
protection services, traffic and safety controls
and devices on streets and highways and at railroad crossings and to enter into agreements with
the county or counties in which a metropolitan
district is situate or with adjoining counties, the
department of transportation, or railroad companies for the erection of such safety controls and
devices and for the construction of underpasses
or overpasses at railroad crossings;
(c) To finance line extension charges for new
telephone construction for the purpose of furnishing telephone service exclusively in districts
which have no property zoned or valued for assessment as residential;
(d) To finance payment of incremental directional drilling costs for oil and gas wells drilled within the district’s service area.
(2) A metropolitan district shall provide two or
more of the following services:
(a) Fire protection as specified in section 32-1103 (7);

18a
(b) Elimination and control of mosquitoes;
(c) Parks or recreational facilities or programs as
specified in section 32-1-103 (14);
(d) Safety protection through traffic and safety
controls and devices on streets and highways and
at railroad crossings;
(e) Sanitation services as specified in section 321-103 (18);
(f) Street improvement through the construction
and installation of curbs, gutters, culverts, and
other drainage facilities and sidewalks, bridges,
parking facilities, paving, lighting, grading, landscaping, and other street improvements;
(g) Establishment and maintenance of television
relay and translator facilities;
(h) Transportation as specified in subsection (5)
of this section;
(i) Water and sanitation services as specified in
section 32-1-103 (18), (24), and (25);
(j) Water as specified in section 32-1-103 (25);
(k) Solid waste disposal facilities or collection
and transportation of solid waste as specified in
section 32-1-1006 (6) and (7).
(3) Any metropolitan district providing services
specified in paragraph (a), (c), (e), (i), or (j) of subsection (2) of this section shall have all the duties,
powers, and authority granted to a fire protection,
park and recreation, sanitation, water and sanitation, or water district by this article, except as provided in subsection (4) of this section.

19a
(4) A metropolitan district may have and exercise
the power of eminent domain and dominant eminent domain and, in the manner provided by article
1 of title 38, C.R.S., may take any property necessary to the exercise of the powers granted, both
within and without the special district, only for the
purposes of fire protection, sanitation, street improvements, television relay and translator facilities, water, or water and sanitation, except for the
acquisition of water rights, and, within the boundaries of the district, if the district is providing park
and recreation services, only for the purpose of
easements and rights-of-way for access to park and
recreational facilities operated by the special district and only where no other access to such facilities exists or can be acquired by other means.
(5) The board of a metropolitan district has the
power to establish, maintain, and operate a system
to transport the public by bus, rail, or any other
means of conveyance, or any combination thereof,
and may contract pursuant to the provisions of part
2 of article 1 of title 29, C.R.S. The board of a metropolitan district may not establish, maintain, or
operate such a system of transportation in a county,
city, city and county, or any other political subdivision of the state empowered to provide a system of
transportation except pursuant to a contract entered into pursuant to the provisions of part 2 of
article 1 of title 29, C.R.S. The board of a metropolitan district not originally organized as having the
power granted in this subsection (5) may exercise
its power upon compliance with the provisions of
part 2 of this article. Notwithstanding any other
provision of this subsection (5), the board of a metropolitan district shall not exercise the power under
this subsection (5) until approved by the district

20a
court in compliance with the provisions of part 2 of
this article and unless authorized, at a regular special district election or a special election held and
conducted pursuant to articles 1 to 13 of title 1,
C.R.S., by a majority of the eligible electors of the
district voting on the question of whether the board
should exercise such power. The board of a metropolitan district which exercises the power granted
in this subsection (5) shall provide transportation
services only in the county or counties within which
the boundaries of the metropolitan district lie.
(6) Notwithstanding anything in this article or any
other law to the contrary:
(a) A metropolitan district may be formed within
any part of the area within the regional transportation district, as described in section 32-9-106.1,
for the single service of financing a system to transport the public by bus, guideway, or any other
means of conveyance, or any combination thereof.
(b) A district created pursuant to paragraph (a)
of this subsection (6) may be formed wholly or
partly within an existing special district which
provides or is authorized to provide the service of
mass transportation if the improvements or facilities to be financed by such a district do not
duplicate or interfere with any other improvements or facilities already constructed or planned
to be constructed within the limits of the existing
special district.
(c) The intergovernmental contract required by
subsection (5) of this section shall not be required
for such a district except where the county, city,
or city and county or any other political subdivision of the state within which a system of trans-

21a
portation is to be financed is actually operating a
system of transportation.
(d) Except as specifically modified by this subsection (6), all other provisions of this article
shall apply to such a district.
(7) The board of a metropolitan district has the
power to furnish security services for any area
within the special district. Such power may be exercised only after the district has provided written
notification to, consulted with, and obtained the
written consent of all local law enforcement agencies having jurisdiction within the area and any
applicable master association or similar body having authority in its charter or declaration to furnish security services in the area. Any local law
enforcement agency having jurisdiction within the
area and any applicable master association or similar body having authority in its charter or declaration to furnish security services in the area may
subsequently withdraw its consent after consultation with and providing written notice of the withdrawal to the board.
(8) (a) The board of a metropolitan district has the
power to furnish covenant enforcement and design
review services within the district if:
(I) The governing body of the applicable master association or similar body and the metropolitan district have entered into a contract to
define the duties and responsibilities of each of
the contracting parties, including the covenants that may be enforced by the district, and
the covenant enforcement services of the district do not exceed the enforcement powers
granted by the declaration, rules and regula-

22a
tions, or any similar document containing the
covenants to be enforced; or
(II) The declaration, rules and regulations, or
any similar document containing the covenants
to be enforced for the area within the metropolitan district name the metropolitan district
as the enforcement or design review entity.
(b) The board of a metropolitan district shall
have the power to furnish covenant enforcement
and design review services pursuant to this subsection (8) only if the revenues used to furnish
such services are derived from the area in which
the service is furnished.
(c) Nothing in this subsection (8) shall be construed to authorize a metropolitan district to enforce any covenant that has been determined to
be unenforceable as a matter of law.
(9) Except as limited by the service plan of the district, the board of a metropolitan district has the
power to provide activities in support of business
recruitment, management, and development within the district if the valuation for assessment of the
commercial property within the district is more
than one and one quarter billion dollars. For purposes of this subsection (9), “commercial property”
means any taxable real or personal property that is
not classified for property tax purposes as either
residential or agricultural. A metropolitan district
meeting the qualifications of this subsection (9)
shall neither have nor exercise the power of eminent domain or dominant eminent domain for the
purposes set forth in this subsection (9).

